   August 17, 2004




Acquisition
Implementation of the
DoD Management Control Program
for Navy Acquisition
Category II and III Programs
(D-2004-109)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
APB                   Acquisition Program Baseline
C4I                   Command, Control, Communications, Computers, and Intelligence
MDA                   Milestone Decision Authority
OMB                   Office of Management and Budget
ORD                   Operational Requirements Document
TEMP                  Test and Evaluation Master Plan
         Office of the Inspector General of the Department of Defense
Report No. D-2004-109                                                  August 17, 2004
  (Project No. D2004AE-0017)

     Implementation of the DoD Management Control Program for
           Navy Acquisition Category II and III Programs

                               Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers who
are involved in the Navy acquisition decision making process should read this report
because it provides an assessment of how the Navy can improve its management control
program for oversight of Navy weapon system programs.

Background. This audit is the third in a series of audits that will evaluate the
effectiveness of the Military Departments’ management control programs in timely
identifying to the milestone decision authority deviations in cost, schedule, and
performance requirements in acquisition program baselines for Acquisition Category II
and III programs and in identifying whether program managers are reporting their status
on preparing and obtaining approval of required program documentation to milestone
decision authorities before milestone decision reviews.

The first report, Inspector General of the Department of Defense Report No. D-2004-47,
“Implementation of the DoD Management Control Program for Army Acquisition
Category II and III Programs,” January 23, 2004, assessed the Army management control
program for oversight of Acquisition Category II and III programs. The second report,
Inspector General of the Department of Defense, Report No. D-2004-108,
“Implementation of the DoD Management Control Program for Air Force Acquisition
Category II and III Programs,” August 16, 2004 assessed the Air Force management
control program for oversight of Acquisition Category II and III programs.

Results. The Navy did not effectively integrate the requirements of the DoD
Management Control Program into its management assessment and reporting process for
nine Acquisition Category II and III programs that had an estimated life-cycle cost of
$5.79 billion. As a result, program managers did not have documented and updated
information needed to more effectively manage their programs. The program managers
further contributed to this condition by not reporting program deviations and not
requesting revisions to acquisition program baselines when cost, schedule, and
performance breaches occurred. In addition, program managers did not provide
milestone decision authorities with timely and documented information so they could
assist program managers who were experiencing cost overruns, schedule delays, and
performance problems. Further, Navy milestone decision authorities made important
program decisions at milestone decision points with incomplete information on the
readiness of the systems for the next phase of the acquisition process. To ensure that
Navy milestone decision authorities make fully informed investment decisions, the Navy
needs to modify its existing reporting requirements for Acquisition Category II and III
program managers to report, at least quarterly, their progress toward satisfying cost,
schedule, and performance requirements in acquisition program baselines and obtaining,
preparing, updating, and issuing approved program documentation before and at planned
milestone decision reviews. Implementation of this reporting requirement will enable
Navy milestone decision authorities to ensure that program managers are on schedule
toward satisfying program requirements, submitting program deviation reports when
required, and reporting deviations from acquisition program baselines as management
control weaknesses. (See the Finding section for details.)

Navy Comments. We received comments from the Executive Assistant and Naval
Aide, Office of the Assistant Secretary of the Navy (Research, Development, and
Acquisition). The Executive Assistant and Naval Aide stated that the Navy implemented
a new programmatic database called DASHBOARD, in June 2004, which requires
program managers for Acquisition Category II programs to report quarterly on the status
of cost, schedule, and performance parameters in acquisition program baselines and on
the signature date of key program documentation. The DASHBOARD also alerts the
program manager on the need to prepare a program deviation report based on a breach of
an acquisition program baseline parameter. He stated that the milestone decision
authorities would use DASHBOARD as a tool to ensure that program managers prepared
program deviation reports. The Executive Assistant and Naval Aide stated that because
breaches of acquisition program baseline parameters were reported in program deviation
reports and were under the control of the milestone decision authorities, they did not need
to report the breaches through their chain of command to the Assistant Secretary of the
Navy (Research, Development, and Acquisition) for consideration as a material
management control weakness for inclusion in the Navy’s annual statement of assurance.
See the Finding section of the report for a discussion of the management comments and
the Management Comments section of the report for the complete text of the comments.

Audit Response. In response to the final report, we request that the Assistant Secretary
of the Navy (Research, Development, and Acquisition) state when he plans to upgrade
DASHBOARD to include a requirement for program managers to report on their status
toward satisfying exit criteria for the next phase of the acquisition process. We also
request that the Assistant Secretary reconsider his position and make DASHBOARD
reporting requirements mandatory for Acquisition Category III program managers and
consider reporting breaches of acquisition program baseline parameters as material
management control weaknesses for inclusion in the Navy’s annual statement of
assurance. The comments on this report should be provided by September 16, 2004.




                                            ii
Table of Contents

Executive Summary                                                             i

Background                                                                   1

Objectives                                                                   3

Finding
     Navy Management Controls for Acquisition Category II and III Programs    4

Appendixes
     A. Scope and Methodology                                                14
          Management Control Program Review                                  15
     B. Management Control Objectives and Techniques                         17
     C. Program Documentation Status                                         19
     D. Audit Response to Navy Comments on the Report                        23
     E. Report Distribution                                                  27

Management Comments
     Department of the Navy                                                  29
Background
           This audit is the third in a series of audits that will evaluate the effectiveness of
           the Military Departments’ management control programs in timely identifying
           deviations in cost, schedule, and performance requirements in acquisition
           program baselines (APB) for Acquisition Category II and III programs1 to the
           milestone decision authority (MDA) and in identifying whether program
           managers are preparing and obtaining required program documentation before
           milestone decision reviews. DoD Instruction 5000.2, “Operation of the Defense
           Acquisition System,” May 12, 2003, defines Acquisition Category II programs as
           major systems with an estimated total expenditure for research, development, test,
           and evaluation of less than $365 million but more than $140 million, or for
           procurement, of less than $2.19 billion but more than $660 million in FY 2000
           constant dollars. DoD Instruction 5000.2 defines an Acquisition Category III
           program as any program that does not meet the minimum requirements for an
           Acquisition Category II program.

           The first report, Inspector General of the Department of Defense Report
           No. D-2004-47, “Implementation of the DoD Management Control Program for
           Army Acquisition Category II and III Programs,” January 23, 2004, assessed the
           Army management control program for oversight of Acquisition Category II and
           III programs. The second report, Inspector General of the Department of
           Defense, Report No. D-2004-108, “Implementation of the DoD Management
           Control Program for Air Force Acquisition Category II and III Programs,” August
           16, 2004 assessed the Air Force management control program for oversight of
           Acquisition Category II and III programs.

           Navy Emphasizes Management Control Process. The Under Secretary of
           Navy stressed the importance of management controls in an April 25, 2002,
           memorandum entitled, “Department of the Navy Management Control Program.”
           The Under Secretary emphasized the importance of a robust Management Control
           Program throughout the Department of the Navy at all levels and in every
           function, program, and process. The Under Secretary stated that to meet a
           command’s mission, comprehensive management controls should reasonably
           assure that programs can achieve their intended results; resources are used
           consistent with agency mission; programs and resources are protected from waste,
           fraud, and mismanagement; laws and regulations are followed; and reliable and
           timely information is obtained, maintained, reported, and used for decision
           making. The Under Secretary went on to say that the Navy must stay focused on
           its goals and objectives, be alert to opportunities for process improvements, and
           ensure that management controls provide the level of assurance necessary to
           successfully accomplish the Navy’s mission.

           Management Control Policy. Office of Management and Budget (OMB)
           Circular A-123, “Management Accountability and Control,” June 21, 1995,

1
    An acquisition category determines an acquisition program’s level of review, decision authority, and
    applicable procedures. The acquisition categories consist of I, major Defense acquisition programs; IA,
    major automated information systems; II, major systems; and III, programs not meeting the criteria for
    acquisition categories I, IA, or II.



                                                       1
defines management controls as the organization, policies, and procedures that
agencies use to ensure that programs achieve their intended results; resources are
used consistent with an agency’s mission; programs and resources are protected
from fraud, waste, and mismanagement; laws and regulations are followed; and
reliable data are obtained, maintained, reported, and used for program decision
making. Further, the DoD and the Navy issued guidance to implement the
requirements of OMB Circular A-123.

        Federal Policy. OMB Circular A-123 requires DoD to provide an overall
annual statement to the President and Congress explaining the state of DoD
management controls, any control weaknesses, and noncompliant accounting
systems. The Secretary of Defense is required to state whether DoD management
controls provide reasonable assurance that resources are being protected from
fraud, waste, and mismanagement. Circular A-123 provides guidance for
establishing, assessing, correcting, and reporting on management controls in
programs and operations, and requires that all management levels be involved in
ensuring that management controls are adequate. Further, it directs that executive
organizations establish cost-effective management control systems to provide
reasonable assurance that resources are protected against fraud, waste, and
mismanagement and that program activities be effectively and efficiently
managed to achieve the goals of the organization. Circular A-123 also states that
Federal managers must carefully consider the appropriate balance of controls in
their programs and operations. Appropriate management controls should be
established and integrated into each system to direct and guide operations.
However, Circular A-123 notes that a separate management control process need
not be instituted, particularly if its sole purpose is to satisfy management control
reporting requirements.

         DoD Policy. To satisfy the OMB requirement, DoD Directive 5010.38,
“Management Control (MC) Program,” August 26, 1996, requires that the
Military Departments, the Defense agencies, and the major joint commands
submit annual statements on their management controls to the Secretary of
Defense. There are no exemptions for acquisition programs. DoD
Directive 5010.38 also provides policy, prescribes procedures, and assigns
responsibilities for management control systems. DoD Directive 5000.1, “The
Defense Acquisition System,” May 12, 2003, requires program managers to
establish program goals for cost, schedule, and performance parameters that
describe the program over its life cycle. Directive 5000.1 further states that
approved program baseline parameters will serve as control objectives, and that
the program manager is required to identify deviations from approved program
baseline parameters and exit criteria. Further, the “DoD Interim Defense
Acquisition Guidebook,” October 30, 2002, states that the program manager
should identify deviations from the approved program baseline parameters and
exit criteria as material weaknesses.

        Navy Policy. Secretary of the Navy Instruction 5200.35D, “Department
of the Navy Management Control Program,” December 10, 1997, implements
public law and OMB and DoD guidance for a management control process, and
requires Navy commanders and managers to maintain an effective control process
that identifies, reports, and corrects material weaknesses.



                                     2
    Scope of Navy Programs Reviewed. To perform the audit, we coordinated with
    the Office of the Naval Inspector General to identify Acquisition Category II and
    III programs for our review that were beyond the concept and technology
    development phase, but that had not received approval for full-rate production.
    The Acquisition Category II systems identified included the AV-8B Open System
    Core Avionics Requirement, Common Aviation Command and Control System,
    AN/BLQ-11 Long Term Mine Reconnaissance System, Mark XIIA Mode 5,
    Advanced Extremely High Frequency Navy Multiband Terminal, and Rapid
    Airborne Mine Clearance System. The Acquisition Category III systems
    identified included the Complementary Low Altitude Weapon System, Photonics
    Mast Navigation System, and Tactical Tomahawk Torpedo Tube Launch.


Objectives
    The overall audit objective was to evaluate the effectiveness of the management
    control program that the Navy Acquisition Executive, or his designees, used for
    Navy Acquisition Category II and III weapon systems. We also assessed the
    process for recognizing and correcting material management control weaknesses.
    See Appendix A for a discussion of the scope and methodology the review of the
    management control program, and prior coverage related to the objectives.
    Appendix B defines management control objectives and techniques. Appendix C
    summarizes the status of certain program documentation prepared for the nine
    programs reviewed.




                                        3
           Navy Management Controls for
           Acquisition Category II and III Programs
           The Navy did not effectively integrate the requirements of the DoD
           Management Control Program into its management assessment and
           reporting process for nine Acquisition Category II and III programs that
           had an estimated life-cycle cost of $5.79 billion. This condition occurred,
           in part, because the existing reporting mechanism in the Navy did not
           require program managers to inform MDAs, at least quarterly, of their
           progress toward:

               •   satisfying cost, schedule, and performance requirements in APBs;
                   and
               •   obtaining, preparing, updating, and issuing approved program
                   documentation before and at planned milestone decision reviews.

           As a result, the program managers did not have documented and updated
           information needed to more effectively manage their programs. The
           program managers further contributed to this condition by not reporting
           program deviations and not requesting revisions to APBs when cost,
           schedule, and performance breaches occurred. In addition, program
           managers did not provide MDAs with timely and documented information
           so they could assist program managers who were experiencing cost
           overruns, schedule delays, and performance problems. Further, MDAs
           made important program decisions at milestone decision points with
           incomplete information on the readiness of the systems for the next phase
           of the acquisition process.


Navy Management Control Programs
    On December 10, 1997, the Office of the Assistant Secretary of the Navy
    (Financial Management and Comptroller) revised the Navy management control
    process by eliminating the requirement for Navy organizations to perform
    formally documented vulnerability assessments or to conduct management
    control reviews on any set schedule. The intention of the revision was to provide
    flexibility to commanders and managers in directing their programs without
    undue administrative control. The Assistant Secretary intended that the
    commanders and managers would select a mix of management control tools most
    suitable to their respective activities to reasonably ensure that:

       •   obligations and costs comply with applicable laws and regulations;

       •   assets are safeguarded against waste, loss, unauthorized use or
           misappropriation; and

       •   revenues and expenditures are properly accounted for and recorded.



                                        4
    Therefore, the Assistant Secretary stated that it is the manager’s leadership
    responsibility to ensure that the management control program is properly
    implemented and that the Department of the Navy management control goals are
    met.

    Navy Management Control Program Requirements. The Assistant Secretary
    of the Navy (Financial Management and Comptroller) developed the Navy’s
    management control program based on the General Accounting Office’s five
    standards for internal control: control environment, risk assessment, control
    activities, communication and information, and monitoring. All Navy commands
    are required to establish a management control program and continuously monitor
    and improve the effectiveness of management controls associated with their
    programs. Each command is to update its written plan annually, and include
    information that indicates the number of scheduled and accomplished
    management control evaluations, the inventory of assessable units, progress
    toward accomplishment of annual program requirements, the method of
    monitoring and evaluation, and the completion date of the evaluation. Emphasis
    is placed on maximizing the use of existing management evaluation data and
    minimizing the creation of processes or procedures solely to execute the
    management control program. It is the responsibility of the Management Control
    Program Coordinator to prepare the organization’s management control plan and
    annual management control statement.

     Management Controls for Acquisition Programs. The Navy relied on the
     milestone decision reviews to ensure that the management controls were in place.
     The Navy’s process to evaluate management controls for acquisition programs
     did not, however, keep MDAs informed of program managers’ progress toward
     satisfying program requirements before milestone decision reviews.
     Accordingly, the Navy’s management control program for acquisition programs
     did not ensure that program managers took the necessary actions to satisfy
     program cost, schedule, and performance requirements in the APBs before
     milestone reviews. The Navy’s management control program also did not ensure
     that program managers reported deviations from APB cost, schedule, and
     performance parameters, or that those breaches were reported as management
     control weaknesses to the Assistant Secretary of the Navy (Financial
     Management and Comptroller).


Navy Reporting Process
    The existing reporting mechanism in the Navy did not require program managers
    for Acquisition Category II and III programs to inform the MDA, at least
    quarterly, of their progress towards satisfying cost, schedule, and performance
    requirements in approved APBs and exit criteria requirements for the next phase
    of the acquisition process. The Navy has more than 115 Acquisition Category II
    and III programs. Without a reporting mechanism in place, Navy MDAs cannot
    provide appropriate oversight for those programs. Although Acquisition
    Category II and III programs are valued less than Acquisition Category I
    programs, the sheer number of Acquisition Category II and III programs
    contributes to a large


                                        5
aggregate value. In an era of funding constraints, the Navy needs to manage its
investment dollars wisely and cannot afford to overlook the oversight of its
Acquisition Category II and III programs.

The reporting process used by the Program Executive Officers did not require
Navy program managers to report on their efforts to obtain, prepare, and update
approved program documentation before planned milestone decision reviews.
The program documentation is to be prepared and approved before milestone
decision points, kept up-to-date between milestone decision reviews, and provide
the MDA with the management control information required in DoD
Directive 5000.1 to timely identify program deviations from approved APB
parameters and exit criteria. As implemented, the Navy’s management
assessment and reporting processes did not provide MDAs with that management
control information. To be effective, the Navy’s management control program
should integrate those management control requirements in its management
assessment and reporting processes.

Reporting on Cost, Schedule, and Performance Requirements. Program
managers for major DoD acquisition programs are required to report quarterly on
their progress towards satisfying cost, schedule, and performance requirements,
including approved APB parameters and exit criteria requirements, in the Defense
Acquisition Executive Summary. However, the Navy did not extend this
reporting requirement to acquisition programs at other Acquisition Category
levels. Therefore, with no formal instruction, each of the commands reviewed
had different systems in place for program offices to report cost, schedule, and
performance progress.

        Status Reports Prepared for Naval Air Systems Command Programs.
Of the three programs reviewed at the Naval Air Systems Command, two were
Acquisition Category II programs and one was an Acquisition Category III
program. For the Acquisition Category II programs reviewed, AV-8B Open
System Core Avionics Requirement and Mark XIIA Mode 5, the program
managers used similar reporting techniques to inform the MDA of cost, schedule,
and performance requirements. Specifically, the program offices informed the
MDA of their programs status through program management reviews, weekly
activity reports, and program summary reports. In addition, the AV-8B Open
System Core Avionics Requirement Program Office used Quad Charts, which are
one-page documents divided into quadrants that discuss the program’s
description, status, schedule and funding; program deviation reports when
applicable; and Acquisition Category issue papers to keep the MDA informed of
program status.

The Program Manager for the Tactical Tomahawk Torpedo Tube Launch
Program, an Acquisition Category III program, informed the MDA of the
program’s cost, schedule and performance progress through weekly activity
reports, weekly staff meetings, bi-weekly program staff meetings, bi-weekly
tactical leadership meetings, monthly “stoplight” reports, monthly admiral
reports, and quarterly Executive Review Board briefings.

       Status Reports Prepared for Naval Sea Systems Command Programs.
At the Naval Sea Systems Command, we reviewed two Acquisition Category II


                                    6
programs and one Acquisition Category III program. The Acquisition Category II
programs were the AN/BLQ-11 Long Term Mine Reconnaissance System and the
Rapid Airborne Mine Clearance System. The Program Manager of the
AN/BLQ-11 Long Term Mine Reconnaissance System used quarterly acquisition
program status reports maintained in an accessible database to keep the MDA
informed of the program status. In addition, the program manager provided
periodic contractor performance reports, interim performance analysis reports,
program summary documents, quarterly Acquisition Category issue papers, and
program deviation reports to the MDA. The Program Manager for the Rapid
Airborne Mine Clearance System relied on periodic reviews, program decision
meetings, acquisition program status reports, and integrated product team
meetings to report the program’s status to the MDA.

The Program Manager for the Photonics Mast Navigation System, an Acquisition
Category III program, generated quarterly program status reports to keep the
MDA informed of the program’s status.

       Status Reports Prepared for Program Executive Office, C4I and
Space. The Advanced Extremely High Frequency Navy Multiband Terminal, an
Acquisition Category II program, was the only program reviewed at the Space
and Naval Warfare Systems Command. The program office used weekly staff
meetings, weekly activity reports, program deviation reports (when applicable),
semi-annual program summary documents, periodic program reviews, annual
Acquisition Category issue papers, as well as periodic self-assessments and
program health assessments to keep the MDA informed of cost, schedule, and
performance progress.

        Status Reports Prepared for Marine Corps Programs. The two
Marine Corps programs selected for review included an Acquisition Category II
program and an Acquisition Category III program. The Program Manager for the
Acquisition Category II program, Common Aviation Command and Control
System, held weekly meetings with the Product Group Director, in addition to
formal briefings three times per year. In terms of reporting, the program manager
provided quarterly reports on major events to the Assistant Commander for
Programs, Marine Corps Systems Command. In addition, the program manager
provided a summary of the year’s events to the Commanding General, Marine
Corps Systems Command. However, the program office did not have an
established reporting mechanism for updating the program’s MDA, the Assistant
Secretary of the Navy (Research, Development, and Acquisition), on the
program’s status. The Program Manager for the Acquisition Category III
program, Complementary Low Altitude Weapons System, stated that informal
reporting to the MDA is through integrated product teams. Formerly, spend plans
were submitted annually that outlined exactly how funds would be spent.
Additionally, Product Group Director briefings are held three times per year, and
the Assistant Commander for Programs, Marine Corps Systems Command was
briefed on a periodic basis. Again, however, the program office did not have an
established reporting mechanism for updating the MDA on the program’s status.

Adequacy of Reported Information. In some instances, reports used within the
commands provided the MDA with up-to-date APB cost, schedule, and
performance data, but did not, in most cases, provide the APB threshold values


                                    7
for the MDA to compare the data with. Without listing the APB thresholds with
the existing program status, the MDA may not realize that the program is over
budget or behind schedule. Additionally, the program office reports did not
provide the MDA with information on whether the program would achieve the
exit criteria established at the last milestone decision review. The inclusion of the
APB threshold values and exit criteria for the next phase of the acquisition
process in the program managers’ reports would inform the MDAs of deviations
from approved acquisition program baseline parameters and exit criteria.

Reporting on the Preparation and Completion of Required Program
Documentation. DoD and Navy procedures do not require program managers to
advise MDAs on their progress towards completing and obtaining key program
documentation, such as the operational requirements document (ORD), the APB,
the test and evaluation master plan (TEMP), and the command, control,
communications, computers, and intelligence (C4I) support plan before program
initiation, which is usually declared when a program enters the system
development and demonstration acquisition phase. At program initiation and
before subsequent program milestone reviews, however, DoD and Navy policy
requires program managers to provide those key program documents for the
MDA to review.

For eight of the nine programs reviewed, program managers held milestone
reviews with MDAs for entry into the system development and demonstration
phase of the acquisition process before preparing or obtaining all required
documentation. For example, although the MDA approved the AV-8B Open
Systems Core Avionics Requirement Program to enter the engineering,
manufacturing, and development phase of the acquisition process on March 6,
1997, the program manager did not have an approved APB until July 14, 2000.
Since July 14, 2000, the APB has been breached twice. Both of these breaches
were a result of schedule delays. The first breach occurred because the test
aircraft was grounded, the second was a result of the time needed to correct
anomalies discovered during testing.

Program documentation that was not available to MDAs at milestone reviews
varied significantly. Specifically, two program managers did not have an
approved ORD, five program managers did not have an approved TEMP, and
three program managers did not have an approved C4I support plan available at
their previous milestone review. Without an approved ORD that contains
validated system performance requirements, the program manager and contractor
cannot be sure that the system design will meet warfighter-required capabilities,
and the test community does not have validated performance parameters for
developmental and operational testing. An approved TEMP is an essential tool
for the program manager and operational testers to identify resources needed to
perform necessary tests of all key performance parameters and to resolve problem
areas. The C4I support plan is critical not only for system design, but for test
organizations to identify system integration issues that need to be addressed
during testing. Although the acquisition regulations encourage management to
streamline and tailor acquisition documentation requirements, the ORD, the
TEMP, and the C4I support plan must be prepared and completed to provide the
MDA with information needed to assess how well a program is progressing
toward the next milestone review in the acquisition process.


                                      8
Updating Program Documentation Between Milestone Decision Reviews.
Additionally, four program managers did not provide MDAs with updated
program documentation between milestone decision reviews when significant
changes affected their programs because they believed that updating program
documentation added no value to the process when MDAs were made aware of
the changes through other means. For example, the Program Manager for the
Complementary Low Altitude Weapon System, which experienced significant
cost and schedule deviations, did not submit a program deviation report to
document the effect on the program and did not timely request the MDA to
approve a revised APB. Instead, the program manager verbally communicated
the information concerning the cost and schedule breaches to the MDA. Program
managers need to document significant changes to program direction in cost,
schedule, and performance requirements so that all parties affected by the
changes, including the intended user of the system and the test community, can
plan and react accordingly. Updating formal program documentation is essential
to ensure that the program manager evaluates the effect of the changes on all
aspects of the program.

Appendix C describes the completeness of program documentation available at
milestone decision reviews for the nine programs reviewed. Without having all
required program documentation, the program manager and the MDA may not be
aware of potential or actual cost, schedule, and performance problems affecting
the program at the time of the milestone decision review. For example, the
Common Aviation Command and Control System, which was approved to enter
the system development and demonstration phase of the acquisition process on
October 25, 2002, still does not have an approved acquisition strategy or APB. In
addition, the program manager did not obtain an approved TEMP until 7 months
after the program entered the system development and demonstration phase. The
lack of these important program documents during the initial stages of the
acquisition process may result in unforeseen schedule delays and cost overruns.
In addition, the program manager’s estimates on the time and resources needed
for testing at the milestone decision review may not be realistic.

If program managers had formally reported delays to the MDAs in the completion
or approval process for key program documents, such as the ORD and the TEMP,
the MDAs could have initiated actions to make sure that the documentation was
prepared, updated, and approved before the milestone decision reviews, or they
could have rescheduled the milestone decision reviews pending the completion of
required program documentation. Because program managers were not
periodically reporting their status toward completing or obtaining required
program documentation, MDAs did not have information needed to take
appropriate actions before the milestone decision reviews for the nine programs
reviewed. However, MDAs also were not requesting information on the status of
program documentation from program managers before program milestone
reviews.

Program Deviation Reporting Requirements. In addition to not routinely
reporting on program status towards satisfying program cost, schedule, and
performance parameters in APBs, a program manager for one of the acquisition
programs reviewed did not submit a program deviation report or request approval
of a revised APB to the MDA within 90 days of when the breach of APB


                                    9
    parameters occurred. Reporting program deviations is an essential
    communication between the program managers and MDAs because it serves as an
    early warning of impending program complications and allows the MDA to help
    with a program solution. If program managers do not report breaches of APB
    parameters, the program deviations can go unnoticed by the MDA while the
    program manager attempts to bring the program back into control.

    In addition, one program manager did not report a breach of APB parameters as a
    management control weakness as required in DoD Directive 5000.1 and the DoD
    Interim Guidebook. Specifically, the product manager for the AV-8B Open
    System Core Avionics Requirement prepared a program deviation report and
    requested a revision of the APB parameters; however, the Program Executive
    Officer did not report the breach as a management control weakness to the
    Assistant Secretary of the Navy (Research, Development, and Acquisition) as
    required. As a result, the Assistant Secretary of the Navy (Research Development
    and Acquisition) did not consider the breach for inclusion as a material
    management control weakness in the FY 2003 statements of assurance prepared
    by the Assistant Secretary of the Navy (Financial Management and Comptroller).


Effect of Management Control Techniques on Program
  Documentation
    Program documentation is the primary means for providing the MDA, as well as
    other key managers, with information needed for decision making. Without
    accurate and updated program documents, such as the APB, the ORD, the TEMP,
    and the C4I support plan, and the program manager’s periodic reporting on
    progress made toward satisfying those requirements, the program manager cannot
    provide assurance to the MDA that cost, schedule, and performance thresholds in
    the APB are being achieved and that the program is affordable. Without this
    information, program managers and MDAs did not have documented information
    needed for program management and oversight, and MDAs did not have
    information needed to assist program managers who were experiencing program
    cost overruns, schedule delays, and performance problems. Further, MDAs did
    not have the information they needed at milestone decision points to make
    informed program decisions on the readiness of the systems to continue into the
    next phase of the acquisition process.


Conclusion
    The management control program for Navy Acquisition Category II and III
    programs varied depending upon the commitment of program management. As a
    result of the Navy and Marine Corps program offices maximizing the use of
    existing management evaluation data to accomplish their management control
    assessments, the assessments did not, in most cases, provide timely management
    control information to MDAs on the program manager’s progress toward
    satisfying cost, schedule, and performance parameters in APBs, which are the
    control objectives for acquisition programs established in DoD Directive 5000.1.


                                       10
    Techniques to achieve control objectives also exist in the preparation and
    presentation of key documents such as the APB agreement, earned value
    management data, and operational test reports. Accordingly, modifying the
    existing Navy and Marine Corps reporting requirements for Acquisition
    Category II and III programs to include APB threshold values, exit criteria, and
    program performance against those parameters would provide Navy and Marine
    Corps MDAs with management control information to implement the
    requirements in DoD Directive 5000.1 and would satisfy the management control
    reporting requirements in DoD Directive 5010.38.

    Because of the conditions identified during the audit, the Navy Acquisition
    Executive should implement the following recommendations to improve the
    Navy’s existing reporting requirements for Acquisition Category II and III
    programs.


Management Comments on the Finding and Audit Responses
    Summaries of management comments on the overall report and audit responses
    are in Appendix D.


Recommendations, Management Comments and Audit
  Response
    1. We recommend that the Navy Acquisition Executive modify existing
    reporting requirements for program managers of Acquisition Category II
    and III programs to report to the milestone decision authority, at least
    quarterly, on their progress towards satisfying cost, schedule, and
    performance parameters in approved acquisition program baselines,
    satisfying exit criteria for the next phase in the acquisition process, and
    obtaining and preparing key program documentation, such as the
    operational requirements document; the test and evaluation master plan;
    and the command, control, computers, communications, and intelligence
    support plan between and for milestone decision reviews.

    Navy Comments. The Executive Assistant and Naval Aide, Office of the
    Assistant Secretary of the Navy (Research, Development, and Acquisition), stated
    that the Assistant Secretary of the Navy (Research, Development, and
    Acquisition) implemented a new database in June 2004 that allowed MDAs to
    assess the status of Acquisition Category I and II programs. The database, named
    the DASHBOARD, includes cost, schedule and performance parameters in
    approved APBs and the program manager’s current estimate for each parameter.
    Program managers are required to update DASHBOARD quarterly. He stated
    that the database automatically highlights all cost, schedule, and performance
    breaches and requires the program manager to provide an explanation whenever a
    breach occurs. Further, the Executive Assistant and Naval Aide stated that, by the
    end of August 2004, the DASHBOARD would be updated to require program
    managers to show the current status and signature date of key program


                                        11
documentation. He also stated that the DASHBOARD could be easily updated to
require program managers to provide the status toward satisfying exit criteria for
the next phase of the acquisition process.

The Executive Assistant and Naval Aide stated that reporting requirements for
Acquisition Category III programs were at the discretion of the milestone
decision authority for those programs. For the complete text of the Navy’s
comments, see the Management Comments section of the report.

Audit Response. The Navy’s comments were partially responsive to
Recommendation 1. The Navy’s implementation of the DASHBOARD reporting
requirements satisfies the intent of the recommendation for Acquisition
Category II programs with the exception of not yet requiring program managers
to report on their status toward satisfying exit criteria for the next phase of the
acquisition process. To provide effective oversight of acquisition programs,
milestone decision authorities need to be kept informed between milestone
decision points as to whether program managers are making satisfactory progress
toward attaining exit criteria established by the milestone decision authorities for
the next phase of the acquisition process. Accordingly, priority should be given
to update the DASHBOARD with this reporting requirement as soon as possible.

Because milestone decision authorities for Acquisition Category III programs
need the same program information as milestone decision authorities for
Acquisition Category II programs to effectively manage their programs, the
DASHBOARD reporting requirements should also be mandatory for Acquisition
Category III program managers. With this information, milestone decision
authorities would have the information they need to determine program manager
progress being made on their programs and whether they need to intervene, take
corrective actions, or make programmatic decisions, when necessary.

Accordingly, we request that the Navy Acquisition Executive state when he plans
to upgrade DASHBOARD to include a requirement for program managers to
report on their status toward satisfying exit criteria for the next phase of the
acquisition process and to reconsider his position on not making DASHBOARD
reporting requirements mandatory for Acquisition Category III program
managers.
2. We recommend that Navy Program Executive Officers or Product Group
Directors:

       a. Use information in the program manager’s progress reports
discussed in Recommendation 1. to require that program managers prepare
program deviation reports when breaches of acquisition program baseline
parameters occur.

Navy Comments. The Executive Assistant and Naval Aide stated that the
DASHBOARD, as discussed in the response to Recommendation 1., would be
used as a tool to ensure that program managers prepared program deviation
reports when breaches of acquisition program baseline parameters occurred.




                                     12
       b. Report breaches of acquisition program baseline parameters and
unattained program exit criteria to the Assistant Secretary of the Navy
(Research, Development, and Acquisition) for consideration as material
management control weaknesses for inclusion in the Navy annual statements
of assurance as required in DoD Directive 5000.1, “The Defense Acquisition
System,” May 12, 2003, and DoD Directive 5010.38, “Management Control
(MC) Program,” August 26, 1996.

Navy Comments. The Executive Assistant and Naval Aide stated that APB
breaches are reported in program deviation reports, are under the control of the
MDA, and therefore do not need to be reported as a material management control
weakness to the Assistant Secretary of the Navy (Financial Management and
Comptroller).

Audit Response. DoD Directive 5000.1 states that approved program baseline
parameters will serve as control objectives for acquisition programs.
Additionally, the DoD Interim Guidebook, in the section entitled, “Management
Controls,” states that program managers will identify deviations from approved
APB parameters and exit criteria as material weaknesses. These management
control weaknesses are to be reported in management control statements of
assurance at the lowest possible level and should be evaluated at each level to
determine their materiality. Accordingly, the intent of Recommendation 2.b. was
for the Assistant Secretary of the Navy (Research, Development, and Acquisition)
to make a final determination on whether deviations in APBs and exit criteria
should be reported as material management control weakness for inclusion in the
Navy annual statements of assurance. To make this determination, however, the
Assistant Secretary of the Navy needs Navy Program Executive Officers and
Product Group Directors to provide information on breaches of APB parameters
and unattained exit criteria as recommended. Therefore, we request that the
Assistant Secretary of the Navy reconsider his position in response to
Recommendation 2.b. in the final report.




                                   13
Appendix A. Scope and Methodology
           To perform the audit, we coordinated with the Office of the Naval Inspector
           General to identify for our review Acquisition Category II and III programs that
           were beyond the concept and technology development phase, but that had not
           received approval for full-rate production. Accordingly, we reviewed the
           following nine Navy acquisition programs that the Naval Inspector General and
           the Program Executive Offices identified:

           Naval Air Systems Command

               •    AV-8B Open Systems Core Avionics Requirement1

               •    Mark XIIA Mode 5 Program1

               •    Tactical Tomahawk Torpedo Tube Launch2

           Naval Sea Systems Command

               •    AN/BLQ-11 Long Term Mine Reconnaissance System1

               •    Photonics Mast Navigation System2

               •    Rapid Airborne Mine Clearance System1

           Program Executive Office, C4I and Space

               •    Advanced Extremely High Frequency Navy Multiband Terminal1

           Marine Corps Systems Command

               •    Common Aviation Command and Control System1

               •    Complementary Low Altitude Weapon System2
           In reviewing the management control process used by the Navy for Acquisition
           Category II and III programs, we examined FY 2003 management control
           documentation. That documentation included management control-related
           documentation from the Assistant Secretary of the Navy (Financial Management
           and Comptroller), the Navy Program Executive Offices, and the Marine Corps
           Systems Command, and supporting documentation. We reviewed those
           documents to identify whether a standardized procedure was in place to complete
           and submit the required documentation and to determine whether the Navy had
           identified any material management control weaknesses for Navy Acquisition
           Category II and III programs.

1
    Acquisition Category II.
2
    Acquisition Category III.



                                               14
    To evaluate the reporting process used by the Navy to support its management
    control of acquisition programs, we reviewed documentation dated from March
    1994 through June 2004. The documentation included acquisition decision
    memorandums; APBs; acquisition strategy reports; C4I support plans;
    programmatic environmental safety and health evaluations; ORDs; and TEMPs
    for the nine Navy programs selected for review. We reviewed those documents to
    ensure that the required program documentation for each program was complete,
    accurate, and up-to-date.

    We performed this audit from November 2003 through June 2004 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Weapons Systems Acquisition high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD policy, acquisition managers are to use program cost, schedule, and
    performance parameters as control objectives in APBs to implement the
    requirements of DoD Directive 5010.38. Accordingly, we limited our review to
    management controls directly related to program cost, schedule, and performance
    in APBs. We also reviewed the adequacy of management’s self-evaluation of
    those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the Navy, as defined in DoD Instruction 5010.40. The
    Navy Acquisition Executive, Commandant of the Marine Corps, and the Program
    Executive Officers did not ensure that controls for obtaining, preparing, updating,
    and approving program documentation and preparing program deviation reports
    were sufficient to ensure that program managers timely provided MDAs with
    acquisition program documentation needed to effectively oversee a program’s
    cost, schedule, and performance data at and between milestone decision reviews.
    Recommendations 1. and 2., if implemented, will improve the quality and
    timeliness of program information provided to Navy and Marine Corps MDAs so
    that they can make fully informed investment decisions. A copy of the report will
    be provided to the senior official responsible for management controls in the
    Navy.



                                        15
    Adequacy of Management’s Self-Evaluation. None of the Program Executive
    Offices, project offices, or program offices reviewed identified management
    control weaknesses related to preparing and updating required acquisition
    program documentation used for program oversight and decision making. The
    Program Executive Officers and project or program managers did not report those
    weaknesses because they did not recognize the lack of up-to-date documentation
    as a management control weakness.


Prior Coverage
    During the last 5 years, the General Accounting Office, the Inspector General of
    the Department of Defense, and the Naval Audit Service have not issued reports
    specifically addressing the implementation of the DoD management control
    program for Navy Acquisition Category II and III programs.




                                        16
Appendix B. Management Control Objectives
            and Techniques
   Control Objectives. Control objectives are the specific goals, conditions, or
   levels of control that a manager establishes for an assessable unit to provide
   reasonable assurance that the resources assigned to that organization are
   adequately safeguarded against waste, fraud, and mismanagement.

   Control objectives must be identified for each organization and should be logical,
   applicable, reasonably complete, and tailored to an agency’s operations, which
   means that the control objectives should be the positive effects that management
   tries to attain or the negative effects it seeks to avoid through adherence to
   established management controls.

   For Navy acquisition programs, basic control objectives involve the program
   office’s ability to adhere to a weapon system’s cost, schedule, and performance
   baseline parameters that are embodied in APBs. The program manager updates
   and the MDA approves the APB at milestone reviews. As weapon systems
   progress through the acquisition process, baseline parameters are refined and the
   level of detail evolves at succeeding milestone reviews. The program manager
   identifies minimum acceptable requirements for each baseline parameter, known
   as thresholds. Values for APB parameters show the system’s cost and
   performance characteristics as they are expected to be produced and fielded, as
   well as critical acquisition schedule events. If those minimum acceptable levels
   or thresholds are not met, the MDA may require a reevaluation of alternative
   concepts or design approaches.

   Program exit criteria are also control objectives for Navy acquisition programs.
   Exit criteria are the specific minimum requirements that a system must
   satisfactorily demonstrate before the MDA will consider approving the system for
   transitioning to the next acquisition phase.
   Control Techniques. Control techniques are mechanisms by which control
   objectives are achieved. A control technique is any form of organization,
   procedure, or document flow that is relied on to accomplish a control objective
   and help safeguard or protect an organization from fraud, waste, and
   mismanagement. Control techniques include, but are not limited to, specific
   policies, procedures, plans of organization (including separation of duties), and
   physical arrangements (such as locks and fire alarms). Management control
   techniques are to continually provide a high degree of assurance that the
   management control objectives are being achieved.

   For Navy acquisition programs, the milestone review documentation specified in
   DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12,
   2003, provides control techniques to achieve the control objectives. The
   management control techniques in the Instruction include the documents in the
   following table.




                                        17
                                      Management Control Techniques

           Control Technique      Objective(s) Controlled            Prepared By         Submitted To

           APB Agreements         Cost, schedule, and                Program Manager     MDA
                                  performance baselines
           Command, Control,      C4I support requirements to        DoD Component       MDA
           Computers,             satisfy the development,
           Communications,        testing, and operational
           and Intelligence       employment of the system
           (C4I) Support Plan
           Earned Value           Reports the progress of the        Contractor          Program Manager
           Management Data        program in meeting cost
                                  parameters
           Operational            Translates mission needs into      DoD Component       Service
           Requirements           detailed performance
           Document (ORD)         capabilities and characteristics
           Operational Test       Reports on the progress of the     Independent Test    Program Manager
           Reports                program in meeting                 Agency
                                  performance parameters
           Test and Evaluation    Major elements and objectives      Program Manager     Director,
           Master Plan (TEMP)     of the test and evaluation                             Operational Test
                                  program                                                and Evaluation2,
                                                                                         MDA, and
                                                                                         Director, Navy
                                                                                         Test and
                                                                                         Evaluation and
                                                                                         Technology
                                                                                         Requirements

           DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, requires system documentation to be maintained for
           management control programs. System documentation includes the policies and
           procedures, organizational charts, manuals, flow charts, and related written and
           graphic materials necessary to describe organizational structure, operating
           procedures, and administrative practices to communicate responsibility and
           authority for accomplishing programs and activities. This type of management
           control documentation is specified in DoD Instruction 5010.40.




1
    The Director, Operational Test, and Evaluation approves the TEMP for all programs on the test and
    evaluation oversight list in the Office of the Secretary of Defense.




                                                      18
Appendix C. Program Documentation Status
           DoD Instruction 5000.2 identifies mandatory program documents that program
           managers must provide at program milestone reviews. The DoD Interim Defense
           Acquisition Guidebook explains the importance of the acquisition program
           documents. The following table of five mandatory acquisition program
           documents shows whether the program managers for the nine programs reviewed
           provided the MDA with the completed and approved documents at the acquisition
           program’s last milestone decision review.

                             Mandatory Program Documentation Provided

                                                                   Programmatic
                                         C4I                      Environmental
                                        Support                   Safety and Health
            Program          APB         Plan           ORD         Evaluation        TEMP
           AEHF NMT3         No          Yes            Yes            Yes             No

           AN/BLQ-114         Yes         n/a5           No             n/a            Yes

           CAC2S6             No          No             Yes            Yes            No

           CLAWS7             Yes         No             Yes            Yes            Yes

           MODE 58            Yes         No             Yes            Yes            No

           OSCAR9             No          n/a            No             n/a            No

           Photonics10        Yes         n/a            Yes            n/a            Yes

           RAMICS11           Yes         Yes            Yes            n/a            No

           TT-TTL12           No          Yes            Yes            Yes            Yes




3
    Advanced Extremely High Frequency Navy Multiband Terminal.
4
    AN/BLQ-11 Long-Term Mine Reconnaissance System.
5
    Not Applicable.
6
    Common Aviation Command and Control System.
7
    Complementary Low Altitude Weapon System.
8
    Mark XIIA Mode 5 Program.
9
    AV-B8 Open Systems Core Avionics Requirement.
10
     Photonics Mast Navigation System. 11 Rapid Airborne Mine Clearance System.
12
     Tactical Tomahawk Torpedo Tube Launch.


                                                   19
Importance of Milestone Documents
    Acquisition Program Baseline. Every acquisition program must have an APB at
    program initiation. The program manager prepares the APB in coordination with
    the user to document the most important cost, schedule, and performance
    parameters (both threshold and objective) for the program. The program manager
    bases the APB on user performance requirements, schedule requirements, and an
    estimate of total program cost. The program manager, in coordination with the
    user, should obtain approval for a revised APB if the program is restructured or if
    there is an unrecoverable program deviation.

    C4I Support Plan. DoD Components must develop C4I support plans for all
    programs early in the acquisition process when the Components connect in any
    way to the communication and information infrastructure. Acquisition decision
    makers are required to review the C4I support plan at each program milestone
    decision; at decision reviews, as appropriate; and whenever support requirements
    change. A C4I support plan assists in identifying system integration issues that
    need to be addressed during testing. Additionally, a C4I support plan assists
    testers in identifying potential system integration issues that will need to be
    tested.

     Operational Requirements Document. The ORD is a formatted statement
     containing performance parameters for the proposed concept or system that is
     prepared by the user or the user’s representative. An ORD provides the
     developmental and operational testers with the ability to determine whether the
     system meets minimum required system capabilities.

    Programmatic Environmental Safety and Health Evaluation. The program
    manager is to initiate the evaluation at the earliest possible time in support of a
    program initiation decision and maintain an updated evaluation throughout the
    life cycle of the program. When program managers perform the analyses for the
    programmatic environmental safety and health evaluation, they gain information
    on the potential environmental, safety, and health effects of developing, fielding,
    storing, demilitarizing, and disposing of their weapon systems. Information
    should be obtained before the program enters the system development and
    demonstration phase to prevent program delays and added program costs
    stemming from the violation of environmental, safety, or health laws.

    Test and Evaluation Master Plan. The TEMP documents the overall structure
    and objectives of the test and evaluation program. It provides a framework within
    which to generate detailed test and evaluation plans and to document schedule
    and resource implications associated with the test and evaluation program. The
    TEMP identifies necessary developmental test and evaluation, operational test
    and evaluation, and live-fire test and evaluation activities. An approved TEMP is
    an essential tool for the program manager and operational testers to identify
    resources needed to perform necessary tests and to test all key performance
    parameters and resolve problem areas.




                                         20
Program Documentation Status
    Advanced Extremely High Frequency Navy Multiband Terminal. The
    Assistant Secretary of the Navy (Research, Development, and Acquisition)
    approved the Advanced Extremely High Frequency Navy Multiband Terminal
    program to enter into the system development and demonstration phase of the
    acquisition process on October 21, 2003. At program initiation, the APB and the
    TEMP were not approved. The Assistant Secretary of the Navy (Research,
    Development, and Acquisition) approved the APB on December 3, 2003,
    approximately 6 weeks after program initiation. As of June 2004, the Director,
    Operational Test and Evaluation, the final approval authority, had not approved
    the TEMP.

    AN/BLQ-11 Long-Term Mine Reconnaissance System. The Assistant
    Secretary of the Navy (Research, Development, and Acquisition) approved the
    AN/BLQ-11 Long Term Mine Reconnaissance System for entry into the
    engineering, manufacturing, and development phase on May 24, 1996. The
    milestone approval was supported by an Acquisition Program Plan. This plan
    consisted of several program documents, including the ORD, TEMP, and an
    environmental section. Although an ORD was included in the Acquisition
    Program Plan, the Deputy Chief of Naval Operations (Resource, Requirements
    and Assessments), the final approval authority, did not approve the ORD until
    August 22, 1996, nearly 3 months after milestone approval.

    Common Aviation Command and Control System. The Assistant Secretary of
    the Navy (Research, Development, and Acquisition) approved the Common
    Aviation Command and Control System to enter the system development and
    demonstration phase of the acquisition process on October 25, 2002. However, as
    of June 2004, the Assistant Secretary had not approved the APB submitted in
    support of that decision. Additionally, the program office had not obtained
    approval for a C4I support plan as of June 2004, even though the ORD identifies
    system interoperability requirements as a key performance parameter. Program
    office personnel created a C4I support plan, but it was never completed or
    approved. At the time of the milestone decision, a new format was being
    developed for the C4I support plan and Marine Corps System Command, System
    Engineering and Integration personnel assumed responsibility for completion of
    the plan. As of June 2004, the C4I support plan had not been completed or
    approved. The Assistant Secretary did not approve the TEMP until May 30,
    2003, 7 months after the October 25, 2002, decision.

    Complementary Low Altitude Weapon System. The Commander, Marine
    Corps Systems Command approved the Complementary Low Altitude Weapon
    System to enter the system development and demonstration phase of the
    acquisition process on March 27, 2001. As of June 2004, the program office had
    not completed and obtained approval for a C4I support plan. Program office
    personnel did not complete a C4I support plan because they did not believe that
    the document was a requirement, and the MDA had not identified the C4I support
    plan as a required document. The ORD, however, identifies system
    interoperability requirements as a key performance parameter.

    Mark XIIA Mode 5 Program. The Assistant Secretary of the Navy (Research,
    Development, and Acquisition) approved the Mark XIIA Mode 5 Program to
                                       21
    enter the system development and demonstration phase on August 7, 2003. The
    TEMP for the program was not approved until November 17, 2003, 3 months
    after the milestone decision. As of June 2004, program office personnel still had
    not completed and obtained approval for a C4I support plan because they did not
    believe that the document was a requirement, even though the ORD identifies
    system interoperability requirements as a key performance parameter.

    AV-8B Open Systems Core Avionics Requirement. The Program Executive
    Officer, Air Antisubmarine Warfare, Assault and Special Mission Programs
    approved the Open Systems Core Avionics Requirement to proceed into the
    engineering, manufacturing, and development phase of the acquisition process on
    March 6, 1997. The Program Executive Officer based his approval on a
    “streamlined” briefing package, which he considered sufficient to support the
    milestone decision. At the time of the milestone decision, the program manager
    did not have an approved APB or TEMP, nor did he have an approved ORD
    specific to the program. The APB was later approved on July 14, 2000, 3 years
    after milestone approval. Similarly, the TEMP was not approved until August 1,
    2002, more than 5 years after the milestone approval date. The Marine Corps
    Combat Command approved a document that consolidated measures of
    effectiveness and suitability from related program ORDs on February 26, 2002.
    However, as of June 2004, an ORD had not been prepared and approved for the
    Open Systems Core Avionics Requirement.

    Photonics Mast Navigation System. The Program Executive Officer,
    Submarines approved the Photonics Mast Navigation System to enter the
    engineering, manufacturing, and development phase of the acquisition process on
    August 19, 1994. All required program documentation was approved at that time.

    Rapid Airborne Mine Clearance System. The Assistant Secretary of the Navy
    (Research, Development, and Acquisition) approved the Rapid Airborne Mine
    Clearance System to enter the system development and demonstration phase of
    the acquisition process on July 29, 2002. At the time of the milestone decision,
    the TEMP had not been approved. The TEMP was later approved by the
    Director, Operational Test and Evaluation on February 2, 2003, 7 months after the
    milestone decision.
    Tactical Tomahawk Torpedo Tube Launch. The Program Executive Officer,
    Strike Weapons and Unmanned Aviation approved the Tactical Tomahawk
    Torpedo Tube Launch program to enter the system development and
    demonstration phase of the acquisition process on July 15, 2002, prior to the
    approval of the APB. The APB was approved by the Program Executive Officer
    a month later on August 21, 2002.


Management Comments on Appendix C. and Audit Responses
    Summaries of management comments on Appendix C. and our audit responses
    are in Appendix D.




                                        22
Appendix D. Audit Response to Navy Comments
            on the Report
    The detailed responses to the comments from the Executive Assistant and Naval
    Aide, Office of the Assistant Secretary of the Navy (Research, Development, and
    Acquisition), on statements in the draft report follow. The complete text of those
    comments is in the Management Comments section of the report.


Management Comments on the Finding and Audit Response
    The Executive Assistant and Naval Aide commented on sections of the finding
    concerning the program deviation report and revised APB for the Complementary
    Low Altitude Weapons System, the approval of the acquisition strategy and APB
    for the Common Aviation Command and Control System, and Navy reporting
    requirements.

    Program Deviation Report and Revised APB for the Complementary Low
    Altitude Weapons System. The Executive Assistant and Naval Aide commented
    on the statement that the Complementary Low Altitude Weapon System did not
    submit a program deviation report after experiencing significant cost and schedule
    deviations and did not timely request the MDA to approve a revised APB. He
    explained that the issue was reported to the MDA within 1 month of the
    deviations, but the APB was held until the FY 2006 Program Objective
    Memorandum was completed because the program had been placed on the Navy’s
    unfunded list.

    Audit Response. As stated in the report, a formal program deviation report was
    not timely submitted to the MDA. As indicated in the Navy comments, revision
    of the APB is still ongoing.

    Acquisition Strategy and APB for the Common Aviation Command and
    Control System. The Executive Assistant and Naval Aide commented on the
    statement that the acquisition strategy and the APB for the Common Aviation
    Command and Control System had not been approved by the MDA at the time the
    draft report was issued, 8 months after the milestone decision. He stated that the
    documentation was “considered approved” because of wording in the Acquisition
    Decision Memorandum that stated that the MDA had reviewed the program as
    presented in a paper review format including schedule, cost, budget, earned value
    management and risk metrics, documentation status, evolutionary acquisition
    approach, contracting strategy and exit criteria, and was permitting entry into
    system development and demonstration. The Executive Assistant and Naval Aide
    stated that the lag-time in signing the documents was an administrative delay.

    Audit Response. The wording in the Acquisition Decision Memorandum did not
    specifically address the documents in question and did not constitute final
    approval of the documents. As indicated in the Navy comments, the acquisition
    strategy and APB were just recently approved.


                                        23
    Navy Reporting Requirements. The Executive Assistant and Naval Aide did
    not agree that the Navy’s existing reporting requirements were not sufficient.
    Specifically, the Executive Assistant and Naval Aide stated that the Assistant
    Secretary of the Navy (Research, Development, and Acquisition) conducted
    formal progress reviews semi-annually of all Acquisition Category I and II
    programs. Additionally, the Assistant Secretary of the Navy (Research,
    Development and Acquisition), in 1997, instituted a reporting format and process
    for all Acquisition Category I and II programs and a select number of Acquisition
    Category III programs. These reports were called Program Summary Documents.
    Program managers were required to update the documents every 4 months
    consistent with the Navy budget review cycle. The Program Summary
    Documents will be replaced by the program manager reporting database called the
    DASHBOARD.

    Regarding the reporting of the status of program documentation, the Executive
    Assistant and Naval Aide stated that at formal milestone decision meetings and
    program reviews, program officers were to report on key unresolved issues and
    program execution status including satisfaction of exit criteria, the program cost,
    schedule and performance status as compared to the APB, test and evaluation
    status, and operational requirements status. He stated that the status of key
    program documentation, if it were incomplete or unsigned, would be considered a
    significant issue. A chart to address the status of program documentation is being
    planned for inclusion in the DASHBOARD.

    Audit Response. The existing reporting mechanisms mentioned above did not
    include all Acquisition Category III programs, did not ensure that program
    information was updated at least quarterly, and that program documentation was
    prepared and approved as evidenced in the report.


Management Comments on Appendix C
    The Executive Assistant and Naval Aide provided comments on eight of the nine
    programs included in Appendix C. The majority of those comments explained
    why key documents listed in Appendix C were not completed or did not have
    final approval at the time of the program’s last milestone decision.

    Advanced Extremely High Frequency Navy Multiband Terminal. The
    Executive Assistant and Naval Aide stated that the Advanced Extremely High
    Frequency Navy Multiband Terminal APB and TEMP were provided to the MDA
    before the milestone review. The Executive Assistant and Naval Aid stated that
    the 42-day delay in the signature of the APB was simply a slight administrative
    delay and the Assistant Secretary of the Navy (Research, Development, and
    Acquisition) continues to work with the Director, Operational Test and
    Evaluation to gain approval of the TEMP.

    Audit Response. As stated in the report, the program manager had not obtained
    final approval of the APB and TEMP at or before the milestone review.

    AN/BLQ-11 Long Term Mine Reconnaissance System. The Executive
    Assistant and Naval Aide stated that although the ORD for the AN/BLQ-11 Long
    Term Mine Reconnaissance System was not officially signed at the time of the
                                        24
milestone review, the program office had concurrence on the ORD requirements
from the Office of the Deputy Chief of Naval Operations, Resources,
Requirements, and Assessments office before the milestone review. Additionally,
at the milestone review, the MDA was advised of the documentation status and
maturity of the ORD, and the MDA considered the documentation appropriate
and adequate.

Audit Response. As stated in the report, the program manager had not obtained
final approval of the ORD at or before the milestone review.

Common Aviation Command and Control System. The Executive Assistant
and Naval Aide stated that the delay in the completion of a Common Aviation
Command and Control System C4I support plan was due to format changes and
revisions to the ORD.

Audit Response. As stated in the report, the program manager had not completed
or obtained final approval of the C4I support plan at or before the milestone
review.

Complementary Low Altitude Weapons System. The Executive Assistant and
Naval Aide stated that the MDA had waived the C4I support plan requirement for
the Complementary Low Altitude Weapons System at the system development
and demonstration milestone decision. He stated that the reason the program
office was now in the process of completing a C4I support plan was because the
ORD was updated in 2003, to include minimal command and control and sensor
requirements.

Audit Response. Neither the program manager nor the Executive Assistant and
Naval Aide provided documentation that showed a waiver for the C4I support
plan requirement. Additionally, Change 4 to the ORD, approved January 19,
2001, included interoperability as a key performance parameter for the
Complementary Low Altitude Weapons System. Therefore, a C4I support plan
was required at the March 27, 2001, system development and demonstration
milestone decision.

Mark XIIA Mode 5. The Executive Assistant and Naval Aide stated that
although the Mark XIIA Mode 5 TEMP was not officially approved until
November 17, 2003, 3 months after the milestone decision, the overall test
structure and objective were documented in the TEMP version that the program
office submitted in support of the milestone decision, and consensus was achieved
through various test working groups. The Executive Assistant and Naval Aide
stated that the delay in signature was simply an administrative delay. Also, the
Executive Assistant and Naval Aide quoted portions of the Mark XIIA Mode 5
ORD to show that the Mark XII Mode 5 would not directly interoperate with any
other C4I system, and exchanges of information would be accomplished through
the host platform. Therefore, a C4I support plan was not considered a
requirement.

Audit Response. As stated in the report, the program manager had not obtained
final approval of the TEMP at or before the milestone review. With regard to the
C4I support plan for the Mark XIIA Mode 5, the Executive Assistant and Naval
Aide’s comments did not state that the ORD identified interoperability as a key
performance parameter for the Mark XIIA Mode 5.
                                   25
AV-8B Open Systems Core Avionics Requirement. The Executive Assistant
and Naval Aide stated that, due to a significant restructure of the program in
1999, an APB was not approved until July 2000, 3 years after the program
initiation decision. He stated that processing of the TEMP encountered
difficulties because of the program restructuring and the delay in completing
requirements in the ORD. Finally, the Executive Assistant and Naval Aide
disagreed that an ORD was not available for the milestone decision because the
initial program was a replacement of an existing legacy system. The Navy had
begun efforts to develop an ORD that incorporated the program restructuring, but
the Chief of Naval Operations ruled that a program-specific ORD was not
necessary and issued an ORD consolidation letter.

Audit Response. As stated in the report, the program manager did not have an
approved APB and TEMP at program initiation. Additionally, the program still
does not have an approved TEMP, 7 years after program initiation and 4 years
after the program was restructured. Further, on the APB signature page dated
July 27, 2000, the Deputy Chief of Naval Operations (Resources, Warfare
Requirements and Assessments) directed an ORD be prepared for approval within
6 months. Despite this direction, no program-specific ORD was created. The
consolidation letter referenced by the Executive Assistant and Naval Aide
consolidated only the program measures of effectiveness and suitability and did
not waive the requirement for a program-specific ORD.

Rapid Airborne Mine Clearance System. The Executive Assistant and Naval
Aide stated that although the Rapid Airborne Mine Clearance System TEMP was
not officially approved until February 2, 2003, 7 months after program initiation,
the overall test structure and objective were documented in the TEMP version
submitted by the program office in support of the milestone decision and that
consensus had been achieved through various test working groups.

Audit Response. As stated in the report, the program manager had not obtained
final approval of the TEMP at or before the milestone review.

Tactical Tomahawk Torpedo Tube Launch. The Executive Assistant and
Naval Aide stated that the APB for the Tactical Tomahawk Torpedo Tube Launch
was in the final stages of review at the time of the milestone review and that the
MDA in the Acquisition Decision Memorandum stated that the APB was required
to be approved within 60 days. The APB was signed 36 days later in accordance
with the Acquisition Decision Memorandum.

Audit Response. As stated in the report, the program manager had not obtained
final approval of the APB at or before the milestone review.




                                    26
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Director, Program Analysis and Evaluation
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Operational Test and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
  Program Executive Officer, Air Antisubmarine Warfare, Assault and Special Mission
      Programs
      Program Manager, Antivehicle Weapons
  Program Executive Officer, Strike Weapons and Unmanned Aviation
      Program Manager, Tomahawk All-Up-Round
  Deputy Commander, Acquisition and Operations
      Program Manager, Air Traffic Control and Combat Identification Systems
  Program Executive Officer, C4I and Space
      Program Manager, Navy Satellite Communications
  Program Executive Officer, Subs
      Program Manager, Photonics
  Program Executive Officer, Littoral and Mine Warfare
      Program Manager, Airborne Mine Countermeasures
      Program Manager, Unmanned Undersea Vehicles
  Commanding General, Marine Corps Systems Command
      Product Group Director, Battlespace Management and Air Defense Systems
         Program Manager, Air Defense Weapon Systems
            Product Manager, Complementary Low Altitude Weapon System
         Program Manager, Operation Center
            Product Manager, Common Aviation Command and Control System
Naval Inspector General
Auditor General, Department of the Navy




                                          27
Department of the Air Force
Auditor General, Department of the Air Force

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                         28
Department of the Navy Comments




                    29
30
31
32
     Final Report
      Reference




     page 21




     page 21




33
Final Report
 Reference




page 9




page 9




               34
     Final Report
      Reference




     page 21




35
Final Report
 Reference




page 21




               36
     Final Report
      Reference




     pages 21-22




     page 10




37
38
     Final Report
      Reference




     page 19;
     page 22




39
Final Report
 Reference




page 22




page 22




               40
     Final Report
      Reference




     page 5




41
Final Report
 Reference




page 9




               42
43
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition Management prepared this report. Personnel of the Office
of the Inspector General of the Department of Defense who contributed to the
report are listed below.

John E. Meling
Susan J. Lippolis
Amy L. Mathews
Brad M. Heller
Michael T. Burger
Marcia T. Hart
Jacqueline N. Pugh
